No.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2021

MICHAEL EUGENE WYATT, Petitioner,
v.
JOHN SUTTON, Respondent.

PROOF OF SERVICE
I, Mary E. Pougiales, do swear and declare that on this date, February 20, 2021, as
required by Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with
first-class postage, or by delivery to a third-party commercial carrier for delivery within
3 calendar days.
The name and addresses of these served are as follows:
Acting Solicitor General
Elizabeth Prelogar
Office of the Solicitor General
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
MARY E. POUGIALES
1 Blackfield Drive, # 111
Tiburon CA 94920
(415) 847-6379
Counsel of record for Petitioner

